  CONTROLS OVER ELECTRONIC DOCUMENT MANAGEMENT

Report No. D-2001-101                      April 16, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Report
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
DPPS                  Defense Procurement Payment System
EDM                   Electronic Document Management
MOCAS                 Mechanization of Contract Administration Services
                       Office of the Inspector General, DoD
Report No. D-2001-101                                               April 16, 2001
 (Project No. D2000FG-0057.02)

                             Controls Over Electronic
                              Document Management

                                 Executive Summary

Introduction. On May 21, 1997, the Under Secretary of Defense (Comptroller)
directed the move to a paper-free contracting process which would modernize the
acquisition processes of contract writing, administration, finance, and auditing. The
Defense Finance and Accounting Service (DFAS) initiated Electronic Document
Management as part of the DoD Paper-Free Contracting Initiative. Electronic
Document Management contributes to the initiative by digitizing paper documents and
offering read-only access to official contracts and modifications, invoices, and
accounting and finance documents. Personnel at DFAS Columbus rely on the
information accessed from Electronic Document Management to make an average of
82,000 contract payments totaling $6 billion each month ($72 billion annually). The
Director, DFAS Columbus, requested that we review Electronic Document
Management to determine whether sufficient safeguards are in place to ensure the
security of electronic contract data.

Objectives. The audit objective was to determine whether the security of Electronic
Document Management at DFAS Columbus was adequate. The audit included reviews
of selected general controls, compliance with the Chief Financial Officers Act
requirements, and the management control program as it related to the overall
objective.

Results. Electronic Document Management access controls were not sufficient and
could not provide reasonable assurance that data accumulated electronically and used by
DFAS Columbus were secure. Specifically, DFAS security over Electronic Document
Management needed improvement in password management, audit log configuration,
Document Capture Center accountability, and convenience scanner control to
adequately safeguard the security of electronically stored contractual data. Further,
unless corrective actions are taken, data maintained in Electronic Document
Management could be altered or misused without detection. These Electronic
Document Management deficiencies identified in this audit were also identified in an
August 1998 Electronic Document Management security test and evaluation performed
by DFAS to accredit Electronic Document Management. However, the DFAS
Electronic Document Management program office had the misconception that it did not
need to correct all the identified findings after the DFAS Chief Information Officer
granted accreditation to the program. Additionally, because of an administrative
oversight, the DFAS Chief Information Officer did not follow up on the reported
findings to ensure that they were corrected. See the Finding section of the report for
details on the audit results.

Summary of Recommendations. We recommend that the Director, DFAS, establish
access controls that allow users to change passwords without any assistance, establish
audit logs that can positively identify users and their actions, incorporate individual
identification and authentication for operators of the high volume scanners within the
Document Capture Center, and control access to the convenience scanners based on
least privilege at DFAS Columbus. Additionally, we recommend that the Director,
DFAS, conduct and document required security reviews as stated in the Electronic
Document Management accreditation letter.

Management Comments. DFAS concurred with establishing access controls for users
of Electronic Document Management that allow users to change passwords without any
assistance. DFAS partially concurred with establishing audit log generation and
maintenance into Electronic Document Management that can positively identify users
and their actions. DFAS partially concurred with incorporating individual identification
and authentication and an inactivity logout for operators of the high volume scanners
within the Document Capture Center, stating that a contractor evaluation would identify
the actions required to correct the problem. DFAS concurred with incorporating access
controls to the Electronic Document Management convenience scanners based on least
privilege, and an automatic inactivity user logout. DFAS concurred with conducting
and documenting required reviews as stated in the Electronic Document Management
accreditation letter. A discussion of management comments is in the Finding section of
the report and the complete text is in the Management Comments section.

Audit Response. Management comments were generally responsive. However, the
comments responding to the establishment of usernames and passwords and an
inactivity logout feature on the high volume scanners were partially responsive. Since
the contractor evaluation should have been completed, DFAS should state what
corrective actions will be taken and when the actions will be accomplished. We request
that the Director, DFAS, provide additional comments in response to the final report by
June 16, 2001.




                                           ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           3

Finding
     Implementation of Security Safeguards Over Electronic Document
       Management                                                         4

Appendixes
     A. Audit Process
           Scope                                                         13
           Methodology                                                   14
           Management Control Program Review                             14
     B. Prior Coverage                                                   16
     C. Report Distribution                                              17

Management Comments
     Defense Finance and Accounting Service, Chief Information Officer   19
     Defense Finance and Accounting Service, Director, Contract Pay
       Services                                                          21
Background
    The Director, Defense Finance and Accounting Service (DFAS) Columbus,
    requested that we review Electronic Document Management (EDM) to
    determine whether sufficient safeguards are in place to ensure the security of
    electronically stored contractual data.

    Paper-Free Contracting Initiative. On May 21, 1997, the Under Secretary of
    Defense (Comptroller) directed the move to a paper-free contracting process and
    stated the need to simplify and modernize the acquisition process in contract
    writing, administration, finance, and auditing.

    Defense Finance and Accounting Service Columbus. To support the Paper-
    Free Contracting Initiative, DFAS began EDM at DFAS Columbus. DFAS
    contracted with Electronic Data Systems, Incorporated, to operate and maintain
    EDM. EDM was first implemented on a limited basis in June 1997 to reduce
    the amount of paper used and stored by DoD contracting personnel, reduce
    contract payment cycle time, improve efficiency, increase customer service, and
    comply with the DoD paper reduction initiative. DFAS plans to cancel EDM as
    a separate program and merge portions of it into the Defense Procurement
    Payment System (DPPS) before 2002. Accordingly, any deficiencies found in
    EDM that are incorporated into DPPS must be corrected before the transition to
    DPPS is undertaken.

    Electronic Document Management. EDM digitizes paper documents received
    through the U.S. mail and offers online access to a large volume of financial
    and accounting documents, such as contracts, contract modifications, invoices,
    and receiving reports. The documents stored in EDM are protected under the
    Privacy Act and considered sensitive in nature. EDM was designed to allow the
    user to view, retrieve, move, and store official financial and accounting
    documents. Personnel at DFAS Columbus rely on the information accessed
    from EDM to make an average of 82,000 contract payments totaling $6 billion
    each month ($72 billion annually). As of August 2000, EDM stored
    approximately 4.6 million financial documents. EDM was fully implemented at
    DFAS Columbus for use with the Mechanization of Contract Administration
    Services (MOCAS) system in July 2000. MOCAS is a contract payment system
    used by DFAS in the administration and payment for hardware, supplies, and
    services.




                                        1
EDM Process. The EDM system is an automated information system that
consists of three subsystems: document capture, indexing, and workflow. The
following figure illustrates the EDM process and flow of data.




        Document Capture. The scanning for EDM is accomplished in the
Document Capture Center at DFAS Columbus. The Document Capture Center
receives paper documents such as contracts, contract modifications, invoices,
and receiving reports through the U.S. mail, from DoD components and
Government contractors. The Document Capture Center is secured with
restricted access because the system servers are stored in that area. Document
Capture Center clerks use high volume scanners to scan the documents into
EDM. Document conversion software is used to convert the paper documents
into digitized images. Once scanned and determined acceptable through quality
assurance techniques, the images are forwarded into a document process queue
for indexing by MOCAS clerks. The paper documents are stored for 90 days,
then destroyed.

       Indexing. The indexing process uniquely identifies each document
within EDM. All MOCAS clerks who have access to EDM have the ability to
index images into EDM. The MOCAS clerks review the image of the scanned
document and manually enter the required index fields into EDM. Index fields


                                  2
     include such items as the contract number, invoice number, and receiving dates.
     After indexing, the image is electronically stored in a workflow folder for
     payment processing.

             Workflow. EDM imaged documents are organized into workflow cases
     that require a specific task to be completed, such as the compilation of
     documents to prepare an invoice for payment. Images could also be stored for
     future use. Workflow allows for retrieval, viewing, and processing of
     documents within EDM by MOCAS clerks.

             Convenience Scanners. DFAS Columbus installed convenience
     scanners within the three MOCAS payment divisions. The convenience
     scanners are located in an open area in each of the payment divisions and can be
     used by all MOCAS clerks. The convenience scanners are used to scan high
     priority documents so as to reduce the number of late payments by DFAS.
     When additional documents are needed to complete a transaction, the MOCAS
     clerk contacts the document originator and requests the document. High priority
     documents bypass the Document Capture Center and are directly received by the
     MOCAS clerk for processing thought a convenience scanner. The MOCAS
     clerk indexes the image and completes the related tasks based on the type of
     document. The convenience scanners offer no limitation in the amount or the
     type of documents that the MOCAS clerks can input into EDM.

Objectives
     The audit objective was to determine whether the security of Electronic
     Document Management at DFAS Columbus was adequate. The audit included
     reviews of selected general controls and compliance with the Chief Financial
     Officers Act requirements and the management control program as it related to
     the overall objective. Refer to Appendix A for discussion of the management
     control program.




                                        3
           Implementation of Security Safeguards
           Over Electronic Document Management
           Access controls over EDM at DFAS Columbus were not sufficient to
           provide users with reasonable assurance that the electronic data
           maintained were accurate. Specifically, password management, audit log
           configuration, Document Capture Center accountability, and convenience
           scanner control needed improvement. DFAS first identified the EDM
           deficiencies in a 1998 security test and evaluation conducted to accredit
           the system; however, the EDM Program Manager did not correct the
           deficiencies. The DFAS Electronic Document Management program
           office had the misconception that they did not need to correct all the
           identified findings. Additionally, because of an administrative oversight,
           the DFAS Chief Information Officer did not conduct required reviews to
           determine whether the EDM Program Manager had corrected the
           deficiencies. As a result, data maintained in EDM may still be subject to
           undetected alteration or misuse.

Guidance for Securing EDM
    DoD System Security Requirement. DoD Directive 5200.28, “Security
    Requirements for Automated Information Systems (AIS),” March 21, 1988,
    provides guidance on mandatory minimum automated information system
    security requirements. Specifically, the Directive requires that safeguards will
    be in place to ensure each person having access to an automated information
    system will be held accountable for his or her actions on that information
    system. The primary method for identifying users involves the individual user
    account and password to control access.

    DoD System Certification and Accreditation Manual. DoD Manual 8510.1,
    “DoD Information Technology Security Certification and Accreditation Process
    (DITSCAP) Application Document,” July 31, 2000, (the accreditation process),
    establishes standards for certifying and accrediting the security of DoD systems
    throughout their life cycle. A certification is a comprehensive evaluation of the
    technical and nontechnical security features of an information technology system
    and other safeguards. The certification supports the accreditation process that
    determines whether a particular design and implementation meets a set of
    specified security requirements. The accreditation is a formal declaration by a
    designated approving authority that an information technology system is
    approved to operate in a particular security mode using a prescribed set of
    safeguards. Additionally, the designated approving authority assumes the
    overall responsibility for the security of the operation and ensures that all
    safeguards required in DoD Directive 5200.28 are implemented and maintained.
    The EDM security plan, August 7, 1998, stated that the DFAS Chief
    Information Officer is the designated approving authority.

    DFAS System Security Guidance. DFAS Regulation 8000.1-R, “Information
    Management Corporate Policy,” May 21, 1999, describes DFAS information

                                       4
           security requirements and implementing instructions, including the requirement
           that all DFAS-owned automated information systems be certified and accredited
           in accordance with the “DFAS Certification and Accreditation Handbook,”
           March 6, 1998. The DFAS Handbook follows a similar process as that
           described in the DITSCAP. EDM was certified and accredited on August 7,
           1998, using the DFAS Certification and Accreditation Handbook.

Access Controls for EDM
           Access and physical controls at DFAS Columbus were not sufficient to provide
           reasonable assurance that the documents contained in EDM were accurate and
           could be relied on to set up payments within MOCAS. Access controls protect
           and control who can log on to a system; ensure that security mechanisms are in
           place to make decisions regarding access to resources; and, provide a capability
           to generate a reliable log of user actions. Physical security controls include
           steps to prevent tampering and intrusion. Specifically, EDM lacked the
           following controls.

               •    EDM users lacked the ability to independently change passwords.

               •    Audit logs were not properly configured to ensure security measures
                    were working properly.

               •    The Document Capture Center lacked individual accountability for the
                    scanning clerks.

               •    The convenience scanners lacked access controls based on least
                    privilege1 and physical security controls.

                   Password Management. Access to EDM is through password and
           username. Passwords are used to authenticate the user to ensure that only
           authorized personnel have access to EDM. However, password controls were
           not adequate because EDM users lacked the ability to change passwords without
           the assistance of the system administrator. According to National Computer
           Security Center Standard 002-85, “DoD Password Management Guide,”
           April 12, 1985, passwords should be changed on a periodic basis and users
           should be permitted to change their passwords without intervention by others to
           counter the possibility of undetected password compromise. In addition, users
           are to protect passwords from compromise and to avoid needless exposure of
           passwords. A password that has been compromised will allow an unauthorized
           user to have access to the system until passwords are changed and properly
           protected.

                   For EDM, the systems administrator generates the logon and passwords
           for the users and notifies the individuals of their new passwords. The system
           generated password is supplied by the EDM system administrator to the
           information system security officer, the terminal area security officer, and

1
    DoD Directive 5200.28 defines the concept of least privilege as that which grants users only enough
    access to the system(s) to complete their official duties.

                                                      5
finally to the user. Therefore, the passwords for EDM users have been exposed
to others and are subject to compromise. DFAS should establish access controls
for users of EDM that allow users to change passwords without any assistance.

        Audit Log Configuration. Auditing logs are used to provide assurance
that protection mechanisms are working as expected by capturing user actions.
However, the EDM audit logs could not be relied on to capture user actions
because the audit logs were not properly configured at DFAS Columbus. The
National Computer Security Center Technical Guide 028, “Assessing Controlled
Access Protection,” May 25, 1992, states that the purpose of the audit log
function for systems is to detect repeated attempts to bypass protection
mechanisms, to monitor use of privileges, and to provide additional assurance
that the protection mechanisms are working. The EDM audit logs were not
capturing audit data because the audit function was not fully turned on. The
EDM security test and evaluation stated that if the audit logs were fully turned
on, the performance of EDM would be degraded.

        Specifically, the audit log for the EDM system did not capture which
user accessed the system; which files the user opened, deleted, or modified;
what programs the user executed, and whether the user used or attempted to use
files and programs to which the user was not granted access. Because the audit
logs can not positively identify users and their actions, the audit logs are not
effective in preventing or detecting potential abuse. DFAS should determine
what safeguards can be put in place before EDM performance is degraded to the
point where it is not cost-effective. In doing so, DFAS should establish EDM
audit log generation and maintenance procedures that would positively identify
users and their actions.

        Document Capture Center Accountability. Access to the high-volume
scanners in the Document Capture Center is through username and password.
Passwords are used to authenticate the user to ensure that only authorized
personnel have access to the high-volume scanners. However, DFAS allowed
personnel in the Center to share the same username and password. DoD
Directive 5200.28 states that individual accountability is required on all DoD
information systems that hold sensitive information. Personnel in the Document
Capture Center prepare documents for scanning and enter them into EDM. The
Document Capture Center had 4 high-volume scanners and maintains a
workforce of 34 people. Specific problems with the Document Capture Center
are as follows.

       •   Each high-volume scanner had a single username and password for
           all 34 DFAS personnel that work within the Document Capture
           Center; therefore, the security controls could not tell which user
           performed specific transactions.




                                   6
       •   For each workstation, the username and password had not been
           changed since EDM became operational on August 7, 1998. At
           times the passwords were posted on the workstations for training
           purposes; therefore, unauthorized personnel with access to the
           Document Capture Center could gain access to the high-volume
           scanners and enter transactions. DFAS personnel stated that
           passwords were changed in late November 2000 as a result of our
           audit.

       •   Multiple incorrect sequential attempts to access the high-volume
           scanners could be made without the system locking the user out;
           therefore, unauthorized personnel could make repeated attempts to
           compromise passwords of the high volume scanners without being
           stopped.
       •   During periods of inactivity there was no automatic system logoff;
           therefore, when a legitimate user leaves a workstation, unauthorized
           personnel would have access to the high-volume scanners and could
           enter documents.

       •   The Document Capture Center had 34 authorized employees, but 200
           additional people had key-cards that gave them access to the room;
           therefore, these 200 personnel could get access to the high-volume
           scanners and could enter transactions if other access controls were
           compromised.

Because of the ineffective access controls on the high-volume scanners, DFAS
would not be able to affix individual accountability to any person for any
inappropriate activity within the Document Capture Center. DFAS should
incorporate individual identification and authentication and an inactivity logout
for operators of the high volume scanners.

        Convenience Scanner Control. High priority contractual documents
such as potential late payments can be entered into EDM by using the
convenience scanners to accelerate the payment process. However, DFAS
Columbus did not control access to the convenience scanners in order to limit
who can enter documents into EDM. The convenience scanners lack access
controls based on least privilege and physical security controls. According to
DoD Directive 5200.28, access controls involve the input of user identification
and passwords that are linked to predetermined access privileges and can be
used to restrict access to specific system resources. Further, according to
Federal Information Processing Standards Publication 31, “Guidelines for
Automatic Data Processing Physical Security and Risk Management,” June
1974, the lack of physical controls could result in the loss of data or program
files. The following problems with controlling the convenience scanners were
detected.

       •   Access to the convenience scanners was not based on least privilege,
           but was given to approximately 1,040 MOCAS clerks which allowed
           them to enter documents into EDM without any supervision to ensure
           that the documents were legitimate.

                                     7
           •   The convenience scanners installed in DFAS Columbus had no
               physical controls to prevent unauthorized use by DFAS personnel.

           •   During periods of inactivity there was no automatic system logoff;
               therefore, when a legitimate user left a workstation, unauthorized
               personnel could access the convenience scanners and could enter and
               index documents into EDM.

    DFAS could not affix individual accountability for inappropriate use of the
    convenience scanners. Consequently, the lack of controls on convenience
    scanners would not permit DFAS to determine whether incorrect or improper
    modifications to contract data had been made. DFAS should incorporate access
    controls to the convenience scanners based on least privilege, physical controls
    to prevent unauthorized use, and an automatic inactivity user logout.

EDM Security Test and Evaluation
    Access controls were not sufficient because the EDM program office did not
    correct deficiencies in password management, audit log configuration,
    Document Capture Center accountability, and convenience scanner control.
    DFAS first identified the EDM deficiencies in a 1998 security test and
    evaluation conducted to accredit EDM. The August 1998 EDM security test
    and evaluation report identified access control deficiencies in the same areas we
    identified in this audit and the August 1998 EDM risk assessment report
    identified possible solutions to the deficiencies that were reported in the security
    test and evaluation. However, the EDM Program Office did not correct all the
    deficiencies and had the misconception that it did not need to correct all the
    identified findings after the DFAS Chief Information Officer granted the
    accreditation. Additionally, because of an administrative oversight, the DFAS
    Chief Information Officer did not conduct the required reviews to determine
    whether the EDM Program Office had corrected the deficiencies.

    According to the EDM accreditation letter, August 7, 1998, the program office
    was to fully implement all recommended countermeasures identified in the final
    risk assessment report. However, the program office did not implement all the
    necessary corrections to the access and physical controls that were identified.
    The accreditation letter also stated that the DFAS Chief Information Officer was
    to annually review the progress of the program office. However, the DFAS
    Chief Information Officer did not request any review to be performed in
    accordance with the accreditation letter. Our review of the EDM access
    controls confirmed that the same deficiencies still existed in password
    management, audit log configuration, Document Capture Center accountability,
    and convenience scanner control. This is the second time these EDM
    deficiencies have been identified, once in the EDM security test and evaluation,
    performed in May and June 1998, and again in this audit.

    EDM Program Office Implementation of Security Corrections. Because the
    program office did not implement all the necessary corrections to the findings
    identified in the security test and evaluation completed on August 7, 1998, EDM


                                        8
          lacked assurance that misuse or unauthorized activities would be detected. The
          program office did not implement all the necessary corrections to the access
          controls because they believed that once the DFAS Chief Information Officer
          accredited EDM, it was not necessary to correct the findings in the security test
          and evaluation. The program office should correct the outstanding security test
          and evaluation findings in password management, audit logs, the Document
          Capture Center, and the convenience scanners.

                      DFAS Chief Information Officer Review of Security Corrections.
          In the August 7, 1998, EDM accreditation letter the DFAS Chief Information
          Officer stated that he would review the progress of the EDM program office to
          ensure that EDM deficiencies were corrected. However, because the DFAS
          Chief Information Officer did not review the progress of the EDM program
          office, the program office did not consider implementing all the identified
          countermeasures. DFAS Chief Information Officer personnel stated that it is
          their policy to conduct reviews to ensure that open security test and evaluation
          findings are closed. However, the EDM security reviews did not occur because
          of an administrative oversight. The DFAS Chief Information Officer should
          conduct and document required reviews as stated in the accreditation
          documentation.

Management Actions
          Reaccreditation Efforts. EDM at DFAS Columbus was certified and
          accredited on August 7, 1998. This accreditation will expire on August 7,
          2001. As of November 29, 2000, a DFAS Arlington2 official indicated that
          reaccreditation efforts would be limited because the indexing and workflow
          subsystems of the EDM system may be incorporated into DPPS before 2002.
          Therefore, only the scanning portion of EDM would continue to be needed.
          DPPS is a DFAS initiative to consolidate DoD payment processes under one
          system. If DPPS incorporates the indexing and workflow portions of EDM,
          then reaccreditation efforts may not be necessary. However, components of
          EDM that will be incorporated into DPPS must have any deficiencies corrected
          to ensure that DPPS can be certified and accredited.

          Efforts Taken by DFAS. DFAS is attempting to mitigate some of the
          password controls and convenience scanner weaknesses.

                  Password Improvements. Personnel at DFAS Arlington stated that they
          have implemented password controls on the local area network at DFAS
          Columbus. The password controls on the network include the requirement that
          all users use an eight-character password, with at least one number and one
          special character including upper and lower cases. Also, the passwords must be
          changed every 90 days. DFAS Arlington personnel stated that because users
          must log into the network before using EDM, the improved password controls
          on the network pass through to EDM.



2
    DFAS Arlington is the site of DFAS headquarters.

                                                   9
            Although these changes are an improvement, they do not necessarily
   strengthen identification and authentication for the EDM user because specific
   logon and password controls for EDM have not changed. Because most
   personnel at DFAS Columbus have access to the local area network, it would
   still be possible for unauthorized personnel to gain EDM access even with the
   improvements to the network passwords. Without strong password controls,
   EDM remains vulnerable to unauthorized access and possible misuse or loss of
   system resources. Therefore, DFAS should develop access controls for users of
   EDM that allow users to change passwords without any assistance.

           Convenience Scanner Modifications. DFAS Columbus has made
   improvements to limit access to the convenience scanners. At the time of our
   review, there were 14 convenience scanners installed within the 3 payment
   divisions at DFAS Columbus. Each convenience scanner is directly connected
   to a workstation that has the EDM application software loaded that any MOCAS
   clerk that had EDM access could use. However, the EDM project manager at
   DFAS Columbus implemented a separate scanning area for each of the three
   payment divisions. The new scanning areas are still in an open area, but with
   only 10 people in each division responsible for using the convenience scanners.
   The EDM project manager at DFAS Columbus has made a request to the
   systems administrator for the next system upgrade to include least privilege
   controls to be incorporated into the convenience scanner workstations, so that
   only authorized personnel have the ability to scan and index.

           Although some policy improvements have been made regarding the use
   of the convenience scanners, workstations still remain in an open area without
   least privilege or physical controls to prevent unauthorized personnel from
   entering documents into the EDM system. DFAS should implement the
   proposed improvements in least privilege (as requested by the EDM project
   manager at DFAS Columbus) and incorporate physical controls into the
   convenience scanning area.

Summary
   Access and physical controls for the EDM system at DFAS Columbus did not
   provide reasonable assurance that the documents contained in the system were
   adequately protected. As such, the EDM security weakness increased the risk
   for undetected alteration or misuse. Access controls over EDM were not
   sufficient to provide users of the system with reasonable assurance that
   electronic data used by DFAS Columbus were accurate.

   Password controls were not adequate because EDM users lacked the ability to
   change passwords without the assistance of the system administrator; therefore,
   DFAS should establish access controls for users of EDM that allow users to
   change passwords without any assistance. The audit log feature for EDM was
   not fully turned on and could not positively identify users and their actions;
   therefore, DFAS should establish audit log generation and maintenance into
   EDM that can positively identify users and their actions. In the Document
   Capture Center, every high-volume scanner had a single username and password


                                      10
    for all personnel, multiple incorrect sequential attempts to logon could be made
    without the system locking the user out, and during periods of inactivity, the
    system did not automatically log the user out; therefore, DFAS should
    incorporate individual identification and authentication and an inactivity logout
    for operators of the high volume scanners. Access to the convenience scanners
    was based on access to EDM, not on least privilege, no physical controls existed
    to prevent unauthorized use, and during periods of inactivity the system did not
    automatically logout the user; therefore, DFAS should incorporate access
    controls into the convenience scanners based on least privilege, physical controls
    to prevent unauthorized use, and an automatic inactivity user logout.

    DFAS Columbus should correct the outstanding security test and evaluation
    findings, which addresses the finding in this report. The DFAS Chief
    Information Office should conduct and document required reviews as stated in
    the accreditation documentation.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Finance and Accounting Service:

           1. Establish access controls for users of Electronic Document
    Management at the Defense Finance and Accounting Service Columbus that
    allow users to change passwords without any assistance.

             DFAS Comments. DFAS concurred. DFAS will incorporate password
    change improvements when EDM Release 5.0 is deployed in July 2001. EDM
    Release 5.0 will provide users with the capability to change their password from
    the initially assigned generic password, and will require users to change
    passwords at least every 60 days.

         2. Establish audit log generation and maintenance into Electronic
    Document Management at the Defense Finance and Accounting Service
    Columbus that can positively identify users and their actions.

            DFAS Comments. DFAS partially concurred. DFAS stated audit
    tracking is very important to them, and they have taken actions to positively
    identify users. However, due to limitations in the EDM software, some users
    have inappropriate access and rights that can not be recorded by audit logs.
    DFAS will eliminate this limitation in a software release before December 31,
    2001.

           Audit Response. DFAS comments are responsive.

           3. Incorporate individual identification and authentication and an
    inactivity logout for operators of the high volume scanners within the
    Document Capture Center at the Defense Finance and Accounting Service
    Columbus.


                                        11
        DFAS Comments. DFAS partially concurred. DFAS stated the
software application controlling the high volume scanners was not designed to
support individual identification and authentication or an inactivity logout
feature. DFAS has asked the contractor to evaluate the establishment of an
individual username and password as well as an inactivity logout feature. The
contractor was to provide an estimate of the level of changes required by
March 31, 2001. Until system improvements can be made, the users have been
instructed to log off the scanners when not in use.

        Audit Response. DFAS comments are partially responsive. Based on
the anticipated completion of the contractor evaluation, DFAS needs to identify
the specific corrective actions that will be taken and when the actions will be
accomplished. We request that DFAS provide a completion date for the
incorporation of individual identification and authentication and an inactivity
logout for the operators of the high volume scanners in comments to the final
report.

        4. Incorporate access controls to the Electronic Document
Management convenience scanners at the Defense Finance and Accounting
Service Columbus based on least privilege, physical controls to prevent
unauthorized use, and an automatic inactivity user logout.

        DFAS Comments. DFAS concurred. DFAS stated they have
developed initiatives to incorporate access controls for the EDM convenience
scanners that include access only for designated users and the identification of
those users. Identification of users will be incorporated in a future software
release scheduled to occur before December 31, 2001. The automatic inactivity
logout feature has been set at 2-3 hours; however, DFAS is reviewing this
policy and will provide the contractor with a new inactivity logout setting.
Additionally, DFAS has reduced the number of convenience scanners to three
and incorporated procedural controls to control access to the convenience
scanners.

       5. Conduct and document required reviews as stated in the
Electronic Document Management accreditation letter.

        DFAS Comments. DFAS concurred. The DFAS Chief Information
Officer stated they are improving processes and procedures to review system
certification and accreditation status. The improvements include making
modifications to the System Inventory Database to improve the process of
capturing system accreditation status. The System Inventory Database is used to
verify system accreditation status. Additionally, program managers and
Information System Security Managers are required to update the System
Inventory Database when system security changes occur. The improvement to
the review process will be completed by October 2001.




                                   12
Appendix A. Audit Process

Scope
    Work Performed. We performed the audit at DFAS Arlington, Arlington,
    Virginia, and at DFAS Columbus, Columbus, Ohio, from August 2000 through
    January 2001. We reviewed how DFAS implemented access controls for EDM.
    We interviewed the DFAS Columbus EDM project manager and obtained a
    detailed understanding of EDM. We reviewed the security agreement, the
    security test and evaluation plan and results of the test, the certification and
    accreditation documentation, and the EDM Security Plan.

    Limitations of Audit Scope. The audit was limited to the review of the general
    controls for the EDM system at DFAS Columbus. Based on our assessment of
    the general controls, we determined that a review of the application controls
    should not be conducted at this time. Previous reports on the Electronic
    Document Interchange and Electronic Document Access have been issued.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers
               Financial Integrity Act. (FM-5.3)




                                        13
           •   Information Technology Management Area. Objective: Ensure
               that DoD vital information resources are secure and protected.
               Goal: Assess information assurance posture of DoD operational
               systems. (ITM-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Information Management and Technology and the
    Defense Financial Management high-risk areas.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform
    this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from August 2000 through January 2001 according to auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We used the General Accounting Office Federal
    Information Systems Control Audit Manual and the DoD Information
    Technology Security Certification and Accreditation Process as guides for
    conducting this general control review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls in place for EDM. Specifically, we reviewed
    the implementation of DoD policies and procedures governing EDM. We
    reviewed management’s self-evaluation applicable to those management
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Management
    controls were not adequate to ensure the accuracy of electronic transactions
    using EDM. All recommendations in this report, if implemented, will provide
                                       14
the necessary controls for ensuring the accuracy of the electronic transactions.
A copy of this report will be provided to the senior official responsible for
management controls in the office of the Assistant Secretary of Defense
(Command, Control, Communications and Intelligence); DFAS Arlington; and
DFAS Columbus.

Adequacy of Management’s Self-Evaluation. DFAS Columbus officials did
not identify EDM as an assessable unit and, therefore, did not identify or report
the material management control weaknesses identified by the audit. Also, had
DFAS management been aware of the results of the EDM security test and
evaluation and implemented corrective actions, a management control weakness
could have been avoided.




                                    15
Appendix B. Prior Coverage

General Accounting Office

    GAO Report No. GAO/AIMD 99-107 (OSD Case No. 1835), “Information
    Security: Serious Weaknesses Continue to Place Defense Operations at Risk,”
    August 26, 1999

    GAO Report No. GAO/AIMD 98-92 (no OSD case number was issued),
    “Information Security – Serious Weaknesses Place Critical Federal Operations
    and Assets at Risk,” September 23, 1998


Inspector General, DoD

    Inspector General, DoD, Report No. D-2001-095, “General Controls Over the
    Electronic Data Interchange,” April 6, 2001

    Inspector General, DoD, Report No. D-2001-029, “General Controls Over the
    Electronic Document Access System,” December 27, 2000

    Inspector General, DoD, Report No. 98-057, “Defense Finance and Accounting
    Service Acquisition Program for the Electronic Document Management
    Program,” January 27, 1998

    Inspector General, DoD, Report No. 98-013, “Second User Acceptance Test of
    the Electronic Document Management System at the Defense Finance and
    Accounting Service Operating Location Omaha, Nebraska,” October 24, 1997

    Inspector General, DoD, Report No. 97-050, “Evaluation of Controls Over
    Workflow Applications Selected for Electronic Document Management,”
    December 17, 1996

    Inspector General, DoD, Report No. 96-214, “Computer Security for the
    Federal Acquisition Computer Network,” August 22, 1996




                                      16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Defense Finance and Accounting Service,
Chief Information Officer Comments




                       19
20
Defense Finance and Accounting Service,
Director, Contract Pay Services Comments




                      21
22
23
24
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Eric L. Lewis
Jacqueline J. Vos
Yolanda C. Watts
Troy R. Zigler
Stephen G. Wynne
